Commodore Bank- Card Regulations

1. Agreement. These regulations govern the possession and use of credit cards (“card”) issued
by Commodore Bank (“Issuer”). Each person who applies for a credit card and in whose name
the card is issued (“Holder”) consents and agrees to these regulations and to the terms contained
on the credit cards, sales drafts, credit adjustment memos and cash advance drafts, signed by or
given to Holder or any authorized user of Holder’s cards. When credit cards are issued upon the
application of two or more persons, all such persons shall be jointly and severally liable as Holders.
The provisions of these regulations, as amended from time to time, govern Holder’s obligations,
notwithstanding any additional or different terms contained in sales drafts, credit adjustment
memos, cash advance drafts or other forms signed by or given to Holder or any user of Holder ‘s
cards to evidence a credit card transaction. Holder authorizes an investigation of Holder’s credit
standing prior to the issuance of a credit card to Holder and at any time thereafter and authorizes
disclosure of information to third parties relating to Holder’s credit standing. These regulations
apply to all credit cards issued to Holder or to others on Holder’s authorization and to any user of
Holder’s cards.
2. Membership Fees. As a condition of participation in the issuer’s credit plan and the issuance
of a card, Holder agrees that there is no annual membership fee for MasterCard consumer and
business accounts. The membership fee described above entitles the Holder to two MasterCard
cards. Holder agrees to pay a fee for each additional card requested. Please see Rates and Fees
Disclosure Table for fees charged.
3. Use of Card. Credit for purchases from a merchant or a cash advance from a participating
financial institution may be obtained by Holder or an authorized user of Holder’s card presenting
one of Holder’s cards to the merchant or participating financial institution and, if requested, by
providing the proper identifying information and signing the appropriate drafts. Failure to sign a
draft does not relieve the Holder of liability for purchases made or cash received. The use of this
card for illegal transactions is prohibited. The card may also be used to obtain cash advances from
certain automated equipment provided it is used with Holder’s correct Personal Identification
Number (“PIN”) issued to Holder. Holder may make only two cash advance withdrawals totaling
not more than $200 each day from compatible ATM terminals. Terminals or terminal operators
may have other limits on the amounts or frequency of cash withdrawals. Holder will not be liable
for the unauthorized use of the card or PIN issued to Holder which occurs before issuer receives
notification orally or in writing of loss, theft or possible unauthorized use of a card or PIN. Lost or
stolen cards or PINS should be reported immediately to Issuer by notifying CUSTOMER SERVICE,
P.O. Box 31535, Tampa, FL 33631-3535, and Telephone (866) 839-3485.
4. Use of Commodore Bank card Checks. Credit obtained by use of a Balance Transfer Check
shall be treated as a credit purchase.
5. Credit Line. Holder will from time to time be informed of the amount of the approved credit line
established for Holder, and Holder covenants not to make credit purchases or borrowings in
excess of that amount. Holder is liable for all purchases and borrowings made with Holder’s cards
by Holder or by anyone authorized to use Holder’s cards.
6. Payment. Holder will be furnished a monthly statement for each billing period at the end of
which there is an undisputed debit or credit balance of $1.00 or more. Holder shall pay within 25
days after each statement Closing Date either (a) the full amount billed (“New Balance”) or, at
Holder’s option, (b) a minimum Payment of $10 or 1% of the New Balance, whichever is greater.
Payments may be mailed to Commodore Bank 100 East Main St P.O. Box 460 Somerset, OH
43783. Payments may be made, in person, at any Commodore Bank office. Payments received
after 4:30 p.m. (EST) on any processing day or at any time on any non processing day will
be considered as payments made on the following processing day. All payments by Holder
will be applied first to payment of Interest Charges in the order of their entry to the account, second
to additional fees and credit insurance charges, if any, in the order of their entry to the account,
third to previously billed cash advances, purchases and other similar charges in the order of their
entry to the account, and then to current cash advances, purchases and other similar charges in
the order of their entry to the account.
7. Interest Charges. Holder shall pay Interest Charges as shown on Holder’s monthly statements,
for each billing period in which there is a cash advance or the Previous Balance is not paid in full
prior to the Closing Date of the billing statement. For cash advance fees, please see the Rates
and Fees Disclosure Table. We figure the Interest Charges on your account by applying the
monthly Periodic Rate to the entire “Balance Subject to Interest Rate.” The additional charge for
cash advances shall not apply to any cash advance obtained under a separate credit agreement
with Holder and written in connection with these regulations. The “Balance Subject to Interest Rate”
is the “average daily balance,” of the account (including current transaction). To get the “average
daily balance,” we take the beginning balance of the account each day, add any new cash
advances, credit purchases and other charges, and subtract any payments or credits, unpaid late
charges, unpaid membership fees and unpaid Interest Charges. This gives us the daily balance.
Then, we add up all of the daily balances for the billing cycle and divide the total by the number of
days in the billing cycle. This gives us the “AVERAGE DAILY BALANCE.” Interest Charges for
credit purchases begin on the date the purchase is posted to the account unless the Previous
Balance shown on the statement is paid in full prior to the Closing Date of the statement. Credit
purchases made during the statement period and the Previous Balance will be excluded from the
calculation of the “average daily balance” if the Previous Balance shown on the front of the
statement was paid in full prior to the Closing Date of the statement. The Interest Charges for cash
advances begin on the date the advance is posted to the account. Holder may avoid additional
Interest Charges on an account by paying in full the New Balance shown on the account’s monthly
statement within 25 days after the Closing Date for that statement.
8. Variable Annual Percentage Rate. The current monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE for new accounts are disclosed on the accompanying card mailer.

These rates may vary monthly and shall be adjusted on the first day of each billing period (“Change
Date”). The ANNUAL PERCENTAGE RATE on each Change Date shall equal the highest prime rate
published in The Wall Street Journal “Money Rates” tables on the last date of publication in the calendar
month preceding each Change Date (“Index Rate”), PLUS a Margin. For more information on current
margin(s), please refer to the Rates and Fees Disclosure Table. The monthly Periodic Rate is 1/12th of
the ANNUAL PERCENTAGE RATE. Beginning on the date an adjustment in the rate is effective and
until the next Change Date, the monthly Periodic Rate then in effect will be applied to the balance in the
account to determine the Interest Charges. An adjustment in the monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE will apply both to the outstanding balances in the
account and to new cash advances, (including any balance transfers from other credit card accounts),
credit purchases, and other charges. An increase or decrease in the Index Rate will cause and increase
or decrease in the monthly Periodic Rate and corresponding ANNUAL PERCENTAGE RATE and may
increase the amount and number of minimum payments. If the Index Rate ceases to be made available,
Issuer may substitute a substantially similar index and margin.
9. How We Will Calculate Your Variable APRs: We calculate variable APRs by adding a margin to
the highest U.S. Prime Rate published in the Money Rates section of The Wall Street Journal two
business days (not weekends or federal holidays) before the closing date shown on your billing
statement. The APR may increase or decrease each month if the Prime Rate changes. Any new rate
will be applied as of the first day of your billing cycle during which the Prime Rate has changed. If the
APR increases, you will pay a higher interest charge and may pay a higher minimum payment. The
Prime Rate is simply a reference index and is not the lowest interest rate available. If The Wall Street
Journal stops publishing the Prime Rate, we will select a similar reference rate.
10. Additional Fees. For a listing of fees charged in association with this card, please see the Rates
and Fees Disclosure Table accompanying this Agreement. These charges will not be imposed if Holder’s
request is in connection with or delivery of the documents in response to an alleged billing error under
Regulations E or Z issued by the Board of Governors of the Federal Reserve System. Fees imposed
will be posted to Holder’s account.
11. Security Interest. All credit advanced to Holder for credit purchases or cash advances constitutes
loans made by Issuer to Holder in the state of Ohio . Issuer disclaims as security for loans made to
Holder under these regulations any security interest it may at any time have in household goods or real
property. Except as disclaimed above, loans made to Holder after the effective date of these regulations
may be secured by collateral given by any Holder to secure other loans from Issuer.
12. Foreign Transactions. If a Holder’s card is used to effect a transaction in a foreign currency, the
transaction amount will be converted to U.S. dollars by MasterCard, MasterCard converts currency to
U.S. dollars using either the government mandated exchange rate or the wholesale exchange rate, in
effect one day before the date of the conversion, as applicable. The exchange rate is increased by 1%
if the conversion is made in connection with a charge to an account and decreased by 1% if the
conversion is made in connection with a credit to an account. The date of conversion by MasterCard
may differ from the purchase date and the posting date identified in the monthly statement for the
account. Holder agrees to pay charges and accept credits for the converted transaction amounts in
accordance with the terms of this paragraph.
13. Disputes. Issuer is not responsible for refusal by any merchant, financial institution or automated
equipment to honor or accept a card. Except as provided in the Federal Truth-in-Lending laws(as
indicated in the Summary of Billing Rights below), Issuer has no responsibility for merchandise or
services obtained by Holder with a card and any dispute concerning merchandise or services will be
settled between Holder and the merchant concerned.
14. Default. Holder covenants to observe and comply with these regulations and covenants not to
permit an event of default to occur. Upon the occurrence of any one or more of the following events of
default: (a) Holder fails to pay at least the Minimum Payment when due on two occasions within any 12month period; or (b) Holder dies, ceases to exist, changes residency to another state, becomes insolvent
or the subject of bankruptcy or insolvency proceedings or fails to observe any covenant or duty
contained in these regulations, if such event or breach materially impairs Holder’s ability to pay amounts
due; the full amount of Holder’s account for which the default occurred (including unpaid Interest
Charges) shall, at Issuer’s option become immediately due and payable if Holder does not cure the
default within 15 calendar days after notice is mailed to the address of Holder, or given as otherwise
provided by law. Issuer has this right, without notice and opportunity to cure; if the default is the Holder’s
third default within 12 months and the Holder is notified of the prior two defaults and the Holder cured
those defaults.
15. Termination. Holder’s consent to these regulations may be terminated at any time by surrendering
the cards issued to Holder or at Holder’s written request, but such termination shall not affect Holder’s
obligations as to any balances or charges outstanding at the time of termination. Termination by any
Holder shall be binding on each person in whose name the card is issued. If Holder’s spouse terminates
this credit plan, the full amount of Holder’s account (including unpaid Interest Charges) may be declared
immediately due and payable. Issuer may terminate Holder’s privilege to use the cards if Holder moves
out of the service area of Issuer, as defined by Issuer from time to time. Unless sooner terminated, the
privilege to use the cards shall expire on the date shown on the cards. At any time, without liability to
Holder and without affecting Holder’s liability for credit previously extended, Holder’s privilege to use the
cards may be revoked or limited to the extent not prohibited by law. The cards are and shall remain the
property of Issuer and Holder agrees to surrender them to Issuer upon demand.
16. Amendments. Issuer may amend these regulations from time to time by sending Holder advance
written notice not less than 90 days prior to the effective date for any change, that is either adverse
to Holder’s outstanding balance or increases certain fees, as required by the Ohio Consumer Act from
time to time, or not less than 15 days prior to the effective date for other changes, or as may otherwise
be required or permitted by law. To the extent that Issuer indicates in the notice and that the law permits,
amendments will apply to Holder’s existing account balance as well as to future transactions. Notices

are deemed given when mailed by Issuer to any Holder to the current address for mailing monthly
statements. Invalidity of any provision of these regulations shall not affect the validity of any other
provisions unless otherwise provided by the Ohio Consumer Act.
17. Governing Law. Holder agrees to be governed by the Ohio Consumer Act with respect to all
aspects of the transactions arising under these regulations. All statutory references are to the
statutes as they may be renumbered or amended from time to time.
18. Disputing Transactions. If you think that there is an error on your statement, write to the
address shown on the billing statement, after the phrase "Please send billing inquiries to ..." In
your letter please include the following information, (a) your name and account number, (b) the
dollar amount of the transaction being disputed, (c) A description of what you believe is wrong and
why you believe it to be a mistake. You must contact us within 60 days after the error has appeared

on your statement. You must notify us of any potential error in writing (or electronically). You may call
us but without a written dispute we are not requires to investigate any potential error. While the dispute
is under investigation, whether or not the transaction is an error the following are true, (a) We cannot try
to collect the amount in question, or report you as delinquent on that amount, (b) the charge in question
may remain on your statement, and we may continue to charge you interest on the amount. But if we
do determine that the charge was in fact an error, you will not have to pay the amount in question or any
interest or any fees related to that amount. (c) While you are not responsible for the remainder of your
balance. (d) We can apply any unpaid amount against your credit limit.
We may report information about your account to credit bureaus. Late payments, missed
payments, or other defaults on your account may be reflected in your credit report.

